FEDERAL TRADE COMMISSION

 OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS 



   October 1, 2006 - March 31, 2007





               Report #36
                                      UNITED STATES OF AMERICA
                               FEDERAL TRADE COMMISSION
                                        WASHINGTON, D.C. 20580




Office of Inspector General
                                      April 30, 2007



The Honorable Deborah Majoras
Chairman
Federal Trade Commission
600 Pennsylvania Avenue, N.W.
Washington, D.C. 20580

Dear Chairman Majoras:

        The attached report covers the Office of Inspector General's (OIG) activities for the first
half of fiscal year 2007 and is submitted according to Section 5 of the Inspector General Act of
1978, as amended.

        During the six-month reporting period ending March 31, 2007, the OIG issued an audit of
the FTC’s FY 2006 financial statements and a companion report to management containing
financial-related findings and recommendations resulting from the audit. Additionally, the OIG
released an audit of the FTC’s Purchase Card Program. The OIG also conducted an External
Peer Review of the Library of Congress’ Office of Inspector General.

        In addition, the OIG processed 53 consumer inquiries and complaints/allegations of
possible wrongdoing during the period, opened four new investigations into wrongdoing and
referred one matter to the Department of Justice for prosecutorial consideration.

       As in the past, management has been responsive in attempting to implement all OIG
recommendations. I appreciate management's support and I look forward to working with you in
our ongoing efforts to promote economy and efficiency in agency programs.

                                              Sincerely,



                                              Howard L. Sribnick
                                              Inspector General
                                      INTRODUCTION

        The Federal Trade Commission (FTC) seeks to assure that the nation’s markets are
competitive, efficient and free from undue restrictions. The FTC also seeks to improve the
operation of the marketplace by ending unfair and deceptive practices, with emphasis on those
practices that might unreasonably restrict or inhibit the free exercise of informed choice by
consumers. The FTC relies on economic analysis to support its law enforcement efforts and to
contribute to the economic policy deliberations of Congress, the Executive Branch and the
public.

        To aid the FTC in accomplishing its consumer protection and antitrust missions, the
Office of Inspector General (OIG) was provided five work years and a budget of $917,500 for
fiscal year 2007.

                                    AUDIT ACTIVITIES

        During this semiannual period ending March 31, 2007, the OIG issued an audit of the
FTC’s FY 2006 financial statements and a companion report to management containing
financial-related findings and recommendations resulting from the audit. Additionally, the OIG
released an audit of the FTC’s Purchase Card Program. The OIG also conducted an External Peer
Review of the Library of Congress’ Office of Inspector General. The OIG plans to began the
following activities during the second half of FY 2007:

       1. an audit of the FTC’s Consumer Response Center,
       2. an audit of the FTC’s FY 2006 financial statements, and
       3. the OIG’s annual security review mandated in the Federal Information Security
          Management Act

Detailed information regarding these audits and reviews completed during the reporting period s
provided below.
                                      Completed Audits

Audit Report Number                                   Subject of Audit

       AR 07-001                     Audit of the Federal Trade Commission’s
                                     Financial Statements for the Fiscal Year Ending
                                     September 30, 2006

       AR 07-001A                    Management Letter to the FY 2006 Financial
                                     Statements

       AR 07-002                     Review of the FTC Purchase Card Program

       N/A                           External Peer Review of the Library of Congress Office
                                     of Inspector General (OIG)
                                              -1­
             Summary of Audits and Reviews Issued During the Current Period

AR 07-001, Audit of the Federal Trade Commission’s Financial Statements for the Fiscal Year
Ending September 30, 2006

        The objective of this audit was to determine whether the agency’s financial statements
present fairly the financial position of the agency. The statements audited were the Balance
Sheets as of September 30, 2006 and 2005 and the related Statements of Net Cost, Statements of
Changes in Net Position, Statements of Budgetary Resources, Statements of Financing and
Statements of Custodial Activity for the years then ended. This was the tenth consecutive year
that the FTC prepared financial statements for audit. OIG audit resulted in the agency receiving
an unqualified opinion, the highest opinion given by independent auditors.

       The FY 2006 audited statements provide insight into the mission and operations of the
Federal Trade Commission. The FTC had total assets of $322 million and $259 million as of
September 30, 2006 and 2005, respectively. Approximately $238 million and $166 million of
the 2006 and 2005 assets, respectively, were funds collected or to be collected and distributed
through the consumer redress program under the agency’s Consumer Protection mission.

       Revenue and financing sources received in fiscal years 2006 and 2005 totaled $214 and
$215 million, respectively. Exchange revenue, classified as earned revenue on the financial
statements, was received from three sources; the collection of premerger notification filing fees,
Do-Not-Call (DNC) user fees, and reimbursements received for services provided to other
government agencies. Financing was received through direct appropriations and imputed costs
absorbed by others.

        Exchange revenue totaled $133 million and $119 million for fiscal years 2006 and 2005,
respectively. The primary source of exchange revenue collected, $111 million in fiscal year
2006 and $99 million in fiscal year 2005, was premerger filing fees. The FTC collects a filing
fee from each business entity that files a Notification and Report form transaction, as required by
the Hart-Scott-Rodino (HSR) Anti-Trust Improvement Act. Qualifying mergers with a
transaction amount over $50 million in total assets are charged a filing fee. The fee is based on a
three-tiered structure: $45,000, $125,000, and $280,000, depending upon the combined total of
assets of the merger transaction. The fee is divided equally between the FTC and the Antitrust
Division of the Department of Justice (DOJ).

        The second largest source of exchange revenue was Do Not Call fees. The FTC collects
fees associated with the implementation and enforcement of the national Do Not Call Registry
sufficient to cover registry costs. The Registry operates under Section 5 of the FTC Act, which
enforces the Telemarketing Sales Rule (TSR). Telemarketers under the FTC’s jurisdiction are
required to pay a user fee and download from the DNC database a list of consumer telephone
numbers on the Registry. Fees are based on the number of area codes downloaded. In fiscal
years 2006 and 2005, respectively, the FTC collected $22 million and $18 million in DNC fees.




                                               - 2 ­

        In addition to exchange revenue, other financing sources were realized through a direct
appropriation from the General Fund of the Treasury, and other non-expenditure transfers, in the
amount of $78 million in fiscal year 2006 and $87 million in fiscal year 2005. Direct
appropriation and transfers represent 36 percent and 41 percent of total funding sources received
for fiscal years 2006 and 2005, respectively.

       The gross cost of operations for 2006 fiscal year was $208 million and represents an
increase of 4.8 percent over the fiscal year 2005 gross cost of operations. Rent expenditures for
the years ending September 30, 2006 and 2005, were approximately $17.5 million and $17.3
million, respectively. These costs supported 1,019 staff-years employed in fulfilling the FTC’s
missions.

        The statement of Custodial Activity details the monetary results of the agency’s law
enforcement mission. Fighting consumer fraud is one of the FTC’s highest priorities; as
consumers lose billions of dollars every year to perpetrators of traditional fraud and fraud on the
Internet. In FY 2006 and FY 2005, the agency obtained monetary judgments against defendants
in consumer fraud cases totaling $315.2 million and $835 million, respectively. Collections
against judgments are generally returned to the fraud victims.

         During the financial statement audit, the OIG identified deficiencies in internal control
that were not considered reportable conditions (that is, they did not rise to a level of seriousness
to be reported in the auditor’s opinion). The OIG communicated these findings to management
in a letter (Management Letter to the FY 2006 Financial Statements (AR 07-001A).

        The objective of the management letter is to bring to management’s attention financial
and/or internal control weaknesses and to make recommendations for corrective action. The
current management letter also follows up on past recommendations made in the prior year’s
management letter. For example, this year’s management letter contains four new findings and
the status (follow-up) of six prior-year findings. One of the new findings identified undelivered
order balances totaling $487,130 for orders between FY 2001 and FY 2005 that should have been
deobligated by September 30, 2006. Upon discovery, the Financial Management Office made
the appropriate adjustments to the financial statements.

        No detail review was performed on outstanding undelivered orders balances identified
within FY 2001 ($231,570) and FY 2002 ($338,783). Due to the length of time that these
remaining undelivered orders have been open, it is doubtful that they still represent legitimate
obligations awaiting delivery of goods or services.

AR 07-002, Review of FTC Purchase Card Program

        The objective of this review was to determine how the FTC Purchase Card Program is
managed, to whom purchase cards are issued, and, whether internal controls are sufficient to
detect and/or prevent fraudulent use of the purchase card.




                                                - 3 ­

        The OIG found that, contrary to applicable regulations, the purchase charge card was used
for official government travel. Between the months of November 2005 and July 2006, $23,334
was inappropriately charged on purchase charge cards for government travel. Cardholders and
their supervisors/managers said they were not aware of the requirement to use only the travel
charge card for official government travel.

        Additionally, the Agency/Organization Program Coordinator (A/OPC) had not reviewed
and restricted the card provider’s merchant category codes (MCC) applicable to the agency
issued purchase card. The MCC include goods and services that are not appropriate for a
government entity. Some of the inappropriate MCC’s, were for dating/escort services, massage
parlors, package stores (beer, wine, and liquor) and membership in clubs (sports, recreation,
athletic), country clubs, and private golf courses. With those MCC codes not being restricted,
there was a potential for abuse and ultimately embarrassment for the FTC. It should be noted
that, however, that except for using the purchase card for official government travel we did not
find any purchases for inappropriate goods or services.

       To address these weaknesses, the OIG recommended that the agency update, document,
and implement risk management controls on the FTC purchase card program (including training)
consistent with OMB Circular A-123 Appendix B, and with Public Law 105-264, §2(a) (1998).
We also recommend that the A/OPC review the card providers MCC and bar the use of the
purchase card for those MCC’s for inappropriate goods and services. The Financial Management
Office has taken appropriate action to address these issues.

External Peer Review of the Library of Congress Office of Inspector General (OIG)

       We conducted an External Peer Review of the Library of Congress Office of Inspector
General (OIG). We reviewed the system of quality control for the audit function in effect for the
year ended June 30, 2006.

        A system of quality control encompasses the OIG organizational structure, and the
policies adopted and procedures established to provide it with reasonable assurance of
conforming to generally accepted government auditing standards (GAGAS). The elements of
quality control as described in GAGAS, are promulgated by the Comptroller General of the
United States. The design of the system, and compliance with it in all material respects, were the
responsibility of the Library of Congress’ OIG. Our objective was to determine whether the
internal quality control system was adequate as designed and implemented to provide reasonable
assurance that applicable auditing standards, policies, and procedures were met. Our
responsibility was to express an opinion on the design of the system and the OIG’s compliance
with the system based on our review.

          We conducted our review in accordance with the guidelines established by the
President’s Council on Integrity and Efficiency and the Executive Council on Integrity and
Efficiency. In performing the review, we obtained an understanding of the system of quality
control for the OIG. In addition, we tested compliance with the OIG’s quality control policies and
procedures to the extent we considered appropriate. These tests included the application of the
OIG’s policies and procedures on selected audits.
                                               - 4 ­

        It was our opinion that the system of quality control for the audit function of the Library
of Congress, Office of Inspector General, had been designed to meet the requirements of the
quality control standards established by the Comptroller General of the United States for a
Federal Government audit organization and was complied with during the year to provide the
OIG with reasonable assurance of conforming with applicable auditing standards, policies, and
procedures.

Other Activity

        Other events during this reporting period was the writing a new audit manual and editing
and updating the manual when GAGAS was revised in January 2007. We also prepared for the
Smithsonian Institution OIG to conduct an external peer review of our audit program system of
quality control.

                                          Planned Audits

Audit Report Number	                                     Subject of Review

       AR 07-003	                     Review of the Federal Trade Commission Consumer
                                      Response Center The objective is to review pertinent
                                      policies and procedures regarding the operation of the
                                      CRC, review the kind of information obtained from
                                      consumers, and determine how consumer complaints are
                                      categorized. The OIG will review consumer complaints
                                      received during FY 2005, FY 2006, and FY 2007. A
                                      limited sample of consumer complaints will be taken for in
                                      depth review. In addition, we will review the customer
                                      interface and consumer satisfaction with the website and
                                      automated phone system.

       AR 07-XXX	                     Review of the Federal Trade Commission
                                      Implementation of the Federal Information Security
                                      Management Act for Fiscal Year 2007 The Federal
                                      Information Security Management Act of 2002 (FISMA)
                                      requires an independent assessment of federal agency
                                      information security programs and practices to determine
                                      their effectiveness. The OIG will evaluate the adequacy of
                                      the FTC’s computer security program and practices for its
                                      major systems. This year, the OIG will again focus its
                                      review on the FTC’s Plan of Action and Milestones to
                                      determine the extent to which the agency has implemented
                                      previously agreed-to OIG and other internally-identified
                                      recommendations. This will enable the OIG to provide
                                      more timely feedback to management on the results of its
                                      efforts to address weaknesses. In addition, the OIG will
                                      visit an FTC regional office to assess information security
                                      there.



                                                - 5 ­

       AR 07-XXX	                     Audit of the FTC’s Financial Statements for Fiscal Year
                                      2007 The purpose of the audit is to express an opinion on
                                      the financial statements of the Federal Trade Commission
                                      for the fiscal year ending September 30, 2006. The
                                      principal statements to be audited include the (a) Balance
                                      Sheet; (b) Statement of Net Cost; (c) Statement of Changes
                                      in Net Position; (d) Statement of Budgetary Resources; (e)
                                      Statement of Financing; (f) Statement of Custodial Activity,
                                      and notes to the financial statements. The OIG will also test
                                      the internal controls associated with the movement of
                                      transactions through the FTC’s financial system and assess
                                      compliance with selected laws and regulations.

                                      The OIG is using guidance contained in OMB Bulletin No.
                                      01-02, Audit Requirements for Federal Financial
                                      Statements, in performing this audit. The audited financial
                                      statements are required to be included in the financial
                                      section of the agency’s Performance and Accountability
                                      Report to be issued on or before November 15, 2007.

                               INVESTIGATIVE ACTIVITIES

       The Inspector General is authorized by the IG Act to receive and investigate allegations of
employee misconduct as well as fraud, waste and abuse occurring within FTC programs and
operations. Matters of possible wrongdoing are referred to the OIG in the form of allegations or
complaints from a variety of sources, including FTC employees, other government agencies and
the general public.

         Reported incidents of possible fraud, waste and abuse can give rise to administrative,
civil or criminal investigations. OIG investigations are also initiated when there is an indication
that firms or individuals are involved in activities intended to improperly affect the outcome of
particular agency enforcement actions. Because this kind of wrongdoing strikes at the integrity
of the FTC's consumer protection and antitrust law enforcement missions, the OIG places a high
priority on these investigations.

        In conducting criminal investigations during the past several years, the OIG has sought
assistance from, and worked jointly with, other law enforcement agencies, including other OIG’s,
the Federal Bureau of Investigation, the U.S. Postal Inspection Service, the U.S. Secret Service,
the U.S. Marshal’s Service, the Internal Revenue Service, Capitol Hill Police, Federal Protective
Service as well as state agencies and local police departments.


                                     Investigative Summary

        During this reporting period, the OIG received 53 consumer and other inquiries and
reports of possible wrongdoing. Of the 53 complaints 35 involved issues that fall under the
jurisdiction of FTC program components (identity theft, credit repair, etc.). These matters were
referred to the appropriate FTC component for disposition.



                                                - 6 ­

       Of the remaining complaints, the OIG opened four new investigations. No complaints
remained ongoing at the end of the last reporting period.

       Following is a summary of the OIG's investigative activities for the six-month period
ending March 31, 2006:

                             Cases pending as of 9/30/06          0
                              PLUS: New cases                     4

                              LESS: Cases closed                  (0)

                             Cases pending as of 3/31/07          4

                                      Investigations Closed

       The OIG closed no investigations during this reporting period.

                               Matters Referred for Prosecution

       During this reporting period the OIG referred one new case to the Department of Justice
for consideration of potential criminal action. That matter remains as an open investigative file.


                                     OTHER ACTIVITIES

                                     Management Advisory

       The OIG issued no new Management Advisories during this reporting period.

                               Significant Management Decisions

        Section 5(a)(12) of the Inspector General Act requires that if the IG disagrees with any
significant management decision, such disagreement must be reported in the semiannual report.
Further, Section 5(a)(11) of the Act requires that any decision by management to change its
response to a significant resolved audit finding must also be disclosed in the semiannual report.
For this reporting period there were no significant final management decisions made on which
the OIG disagreed and management did not revise any earlier decisions on an OIG audit
recommendation.

                                     Access to Information

        The IG is to be provided with ready access to all agency records, information, or
assistance when conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the
IG to report to the agency head, without delay, if the IG believes that access to required
information, records or assistance has been unreasonably refused, or otherwise has not been
provided. A summary of each report submitted to the agency head in compliance with Section
6(b)(2) must be provided in the semiannual report in accordance with Section 5(a)(5) of the Act.




                                               - 7 ­

        During this reporting period, the OIG did not encounter any problems in obtaining
assistance or access to agency records. Consequently, no report was issued by the IG to the
agency head in accordance with Section 6(b)(2) of the IG Act.

                                         Audit Resolution

        As of the end of this reporting period, all OIG audit recommendations for reports issued
in prior periods have been resolved. That is, management and the OIG have reached agreement
on what actions need to be taken.

                                      Review of Legislation

        Section 4(a)(2) of the IG Act authorizes the IG to review and comment on proposed
legislation or regulations relating to the agency or, upon request, affecting the operations of the
OIG. During this reporting period, the OIG reviewed no legislation.

                           Contacting the Office of Inspector General

        Employees and the public are encouraged to contact the OIG regarding any incidents of
possible fraud, waste, or abuse occurring within FTC programs and operations. The OIG
telephone number is (202) 326-2800. To report suspected wrongdoing, employees may also call
the OIG's investigator directly on (202) 326-2618. A confidential or anonymous message can be
left 24 hours a day. Complaints or allegations of fraud, waste or abuse can also be emailed
directly to chogue@ftc.gov. OIG mail should be addressed to:

                                      Federal Trade Commission
                                      Office of Inspector General
                                      Room NJ-1110
                                      600 Pennsylvania Avenue, NW
                                      Washington, D.C. 20580

        OIG reports can access via the internet at: www.ftc.gov/oig. A visitor to the OIG home
page can download recent (1996-2006) OIG semiannual reports to Congress, the FY 1998 - 2006
financial statement audits, and other program and performance audits issued beginning in FY
1999. A list of audit reports issued prior to FY 1999 can also be ordered via an e-mail link to the
OIG. In addition to this information resource about the OIG, visitors are also provided a link to
other federal organizations and Office of Inspectors General.




                                                - 8 ­

TABLE I
                   SUMMARY OF INSPECTOR GENERAL
                      REPORTING REQUIREMENTS

   IG Act
 Reference                   Reporting Requirement                           Page(s)

Section 4(a)(2)    Review of legislation and regulations                        8

Section 5(a)(l)    Significant problems, abuses and deficiencies                2-5

Section 5(a)(2)    Recommendations with respect to significant
                   problems, abuses and deficiencies                            6

Section 5(a)(3)    Prior significant recommendations on which
                   corrective actions have not been made                        7

Section 5(a)(4)    Matters referred to prosecutive authorities                  7

Section 5(a)(5)    Summary of instances where information was refused           8

Section 5(a)(6)    List of audit reports by subject matter, showing dollar
                   value of questioned costs and funds put to better use        10,11

Section 5(a)(7)    Summary of each particularly significant report              2-5

Section 5(a)(8)    Statistical tables showing number of reports and
                   dollar value of questioned costs                             10

Section 5(a)(9)    Statistical tables showing number of reports and dollar
                   value of recommendations that funds be put to better use     11

Section 5(a)(10)   Summary of each audit issued before this reporting
                   period for which no management decision was made
                   by the end of the reporting period                           8

Section 5(a)(11)   Significant revised management decisions                     7

Section 5(a)(12)   Significant management decisions with which
                   the inspector general disagrees                              7




                                           - 9 ­

                              TABLE II

                  INSPECTOR GENERAL ISSUED REPORTS

                       WITH QUESTIONED COSTS




                                                                    Dollar Value

                                                            Questioned     Unsupported
                                                   Number     Costs            Costs


A.   For which no management decision has
     been made by the commencement of the
     reporting period                                  0        0          (       0   )

B.   Which were issued during the reporting
     period                                            1     23,334        (       0   )

     Subtotals (A + B)                                 1     23,334        (       0   )

C.   For which a management decision was
     made during the reporting period                  1     23,334        (       0   )

     (I) dollar value of disallow ed costs             0        0          (       0   )

     (ii) dollar value of cost not disallowed          0        0          (       0   )

D.   For which no management decision was
     made by the end of the reporting period           0        0          (       0   )

     Reports for which no management
     decision was made within six months of
     issuance                                          0        0          (       0   )




                                             - 10 ­

                                         TABLE III


         INSPECTOR GENERAL ISSUED REPORTS

WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                         Number   Dollar Value
A.	    For which no management decision has been made
       by the commencement of the reporting period         0           0


B	     Which were issued during this reporting period      0           0


C.	    For which a management decision was made during
       the reporting period                                0           0

       (i) dollar value of recommendations that were
       agreed to by management                             0           0

       - based on proposed management action               0	          0

       - based on proposed legislative action              0	          0

       (ii) dollar value of recommendations that were
       not agreed to by management                         0           0


D. 	   For which no management decision has been made
       by the end of the reporting period                  0           0

       Reports for which no management decision was
       made within six months of issuance                  0           0




                                             - 11 ­

